0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief for
Amicus Curiae First Liberty Institute in Support of
Respondents in 20-255, Mahanoy Area School District
v. B. L., a minor, by and through her father, Lawrence
Levy and her mother, Betty Lou Levy, were sent via
Next Day Service to the U.S. Supreme Court, and 3
copies were sent via Next Day Service and e-mail to
the following parties listed below, this 31st day of
March, 2021:
Lisa Schiavo Blatt
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
(202) 434-5050
lblatt@wc.com
Counsel for Petitioner
Witold J. Walczak
ACLU of Pennsylvania
P.O. Box 23058
Pittsburgh, PA 15222
(412) 681-7864
vwalczak@aclupa.org
Counsel for Respondents

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I (800) 890.5001
www.beckergaltagher.com

8790 Governor's Hill Drive

Franklin Square

Suite 102

1300 I Street, NW, Suite 400E

I Cincinnati, Ohio 45249

Washington, DC 20005

Kelly J. Shackelford
Counsel of Record
Jeffrey C. Mateer
Hiram S. Sasser, III
David J. Hacker
Justin E. Butterfield
Lea E. Patterson
First Liberty Institute
2001 West Plano Parkway, Suite 1600
Plano, TX 7 507 5
(972) 941-4444
kshackelford@firstliberty.org

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on March 31, 2021.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

TuM..u?i.. ~ I , cJ1.J J f

J~tj. /a0±4v

Notary Public

'-...J

[seal]

JOHN 0. GALL.hGHER
Notary Public, State of Ohio

My Commission Expires
re!m ry 14, ~rin

